                                                        IG-02-013




AUDIT
                           LOCKHEED MARTIN SPACE OPERATIONS’
REPORT                     USE OF PROFESSIONAL AND CONSULTANT
                                         SERVICES

                                       March 26, 2002




                              OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

        Assistant Inspector General for Audits
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

ACO              Administrative Contracting Officer
CSOC             Consolidated Space Operations Contract
DCAA             Defense Contract Audit Agency
DCMA             Defense Contract Management Agency
DOD              Department of Defense
FAR              Federal Acquisition Regulation
LMSO             Lockheed Martin Space Operations
NPD              NASA Policy Directive
SEAT             Science, Engineering, Analysis, and Test
                                          March 26, 2002
W


TO:              A/Administrator

FROM:            W/Counsel to the Inspector General

SUBJECT:         INFORMATION: Lockheed Martin Space Operations’ Use of
                 Professional and Consultant Services
                 Report Number IG-02-013


The NASA Office of Inspector General has completed an audit of Lockheed Martin
Space Operations’ (LMSO’s)1 use of professional and consultant services. Professional
and consultant services are services performed by persons who are members of a
particular profession or possess a special skill and who are not officers or employees of
the contractor.2 We found procurements of professional and consultant services that did
not meet Federal Acquisition Regulation (FAR) requirements for competition and
professional and consultant service costs that did not meet FAR requirements for
allowability. Specifically, LMSO officials had not prepared written justifications for
noncompetitive procurements of services and did not maintain evidence on the nature and
scope of the furnished services. As a result, the Agency has reduced assurance that
LMSO obtained the best available source or price for professional and consultant services
and that the work performed was proper and did not violate law or regulations. Also,
$383,777 charged to NASA for professional and consultant services may include
unallowable costs.

Background

LMSO manages and performs two major contracts with NASA’s Johnson Space Center
(Johnson), the Consolidated Space Operations Contract (CSOC), NAS9-98100, and the
Science, Engineering, Analysis, and Test (SEAT) contract, NAS9-19100.3 The CSOC

1
  LMSO, based in Houston, Texas, is a business unit of Lockheed Martin Technology Services Group in
Cherry Hill, New Jersey.
2
  Federal Acquisition Regulation Part 31.205-33 provides this definition. The NASA budget includes a
separately stated amount for services titled, “professional, administrative, and management advisory
services.” The NASA budget amount applies to services obtained by NASA under a contract and does not
apply to professional and consultant services obtained by a NASA contractor under a subcontract.
Therefore, the NASA budget amount does not apply to the audit objectives and scope.
3
  NASA awarded NAS9-19100 to Lockheed Martin Engineering and Sciences Company, but due to
reorganizations and other changes within Lockheed, the contract is currently managed and performed by
LMSO.
                                                                                                                 2

and SEAT contract require LMSO to comply with FAR requirements pertaining to
professional and consultant services. The contracts require LMSO to competitively
award subcontracts to the maximum extent possible. This includes documenting efforts
to identify potential sources for the services and the reasons sources were incapable of
performing the subcontract requirements. The Defense Contract Management Agency
(DCMA) is responsible for the Government’s oversight of LMSO’s purchasing system.

In addition, the FAR states that professional and consultant costs are allowable costs only
when supported by documented evidence of the nature and scope of the furnished service.
Support would include details of the agreement between LMSO and the consultant,
invoices from consultants that provide sufficient detail on the nature of the actual services
performed, and the consultant’s work products. The Defense Contract Audit Agency
(DCAA) is responsible for reviewing LMSO’s incurred costs for allowability.

Contracting for professional and consultant services is susceptible to problems such as
noncompliance with laws and regulations related to competition and conflict of interest,
circumvention of related internal controls, and potential improper use of funds. Although
the costs for these services are generally low-dollar costs, they are considered sensitive
costs.4 Weaknesses in the procurement and contract administration processes exist in this
sensitive cost area that, taken in combination, pose a risk of abuse to NASA.

Recommendations

We recommended that NASA coordinate with the DCMA to require LMSO to prepare
written justifications for future noncompetitive selections of professional and consultant
services and to maintain documentation on the details of actual services performed by the
professionals or consultants including deliverable items such as required analyses and
reports. Adequate documentation provides NASA assurance that professional and
consultant service subcontracts are allowable contract costs and that LMSO awarded the
subcontracts to the best available source at a reasonable price, particularly in the absence
of competition. We also recommended that NASA request that DMCA include
professional and consultant service subcontracts in future risk assessments and reviews of
LMSO’s purchasing system and that DCAA review LMSO costs for professional and
consultant services in future incurred cost audits. Because the professional and
consultant service subcontracts are vulnerable to improper use, additional review by the
DCMA and DCAA will give NASA improved oversight of such services.




4
 FAR 9.5, "Organizational and Consultant Conflicts of Interest," states that organizational and consultant
conflicts of interest result when other activities or relationships limit a person's ability to give impartial
advice to the Government or objectively perform contract work. The U.S. General Accounting Office
(GAO) identified consultant service costs as sensitive in publication GAO/AFMD-8.1.2, “Guide for
Evaluating and Testing Controls Over Sensitive Payments,” May 1993.
                                                                                      3

Management’s Response and OIG Evaluation

NASA concurred with the findings and recommendations. The DCMA will initiate
actions to ensure that LMSO prepares written justifications when professional or
consultant services are obtained noncompetitively and that LMSO maintains
documentation identifying the nature and scope of furnished professional and consultant
services. Further, DMCA will include professional and consultant service subcontracts in
future risk assessments and purchasing system reviews and the DCAA will include costs
for professional and consultant services in the next incurred cost audit.

Management’s completed actions are responsive to the recommendations. Details on the
status of the recommendations are in the recommendation sections of the report.


[original signed by]
Francis P. LaRocca

Enclosure
Final Report on Audit of Lockheed Martin Space Operations’ Use of Professional and
 Consultant Services
LOCKHEED MARTIN SPACE OPERATIONS’ USE OF
 PROFESSIONAL AND CONSULTANT SERVICES
                                    March 26, 2002
W


TO:           M/Associate Administrator for Space Flight
              JSC/AA/Acting Director, Lyndon B. Johnson Space Center

FROM:         W/Assistant Inspector General for Audits

SUBJECT:      Final Report on the Audit of Lockheed Martin Space Operations’ Use of
              Professional and Consultant Services
              Assignment Number A-00-021-02
              Report Number IG-02-013


The subject final report is provided for your information and use. Please refer to the
Executive Summary for the overall audit results. Our evaluation of your response is
incorporated into the body of the report. The corrective actions completed for the
recommendations were responsive and are sufficient to close the recommendations for
reporting purposes.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-3360, or Mr. Doug Orton, Auditor-in-Charge,
at (281) 244-1159. We appreciate the courtesies extended to the audit staff. The final
report distribution is in Appendix F.


[original signed by]
Alan J. Lamoreaux

Enclosure

cc:
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
JM/Director, Management Assessment Division
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 3

     Finding A. Controls Over Noncompetitive Procurements of
                Professional and Consultant Services, 3

     Finding B. Contractor Support for Professional and Consultant
                Service Costs, 8

Appendix A - Objectives, Scope, and Methodology, 13

Appendix B - Summary of Prior Reviews and Findings, 15

Appendix C - Subcontracts Reviewed, 17

Appendix D - Task Directives Reviewed, 18

Appendix E – Management’s Response, 19

Appendix F - Report Distribution, 25
                        NASA Office of Inspector General
IG-02-013                                                          March 26, 2002
 A-00-021-02

          Lockheed Martin Space Operations’ Use of Professional
                        and Consultant Services

                                 Executive Summary
Background. Under the CSOC contract, LMSO manages and provides space operations
services to meet the requirements of NASA’s space flight and science programs. The
CSOC is a $2 billion cost-plus-award-fee contract with a period of performance from
October 1, 1998, to December 31, 2003. Under the SEAT contract, LMSO provides
support to Johnson’s science, engineering, analysis, and test functional areas. The SEAT
contract is a $1.7 billion cost-plus-award-fee contract with a period of performance from
May 1, 1993, to December 31, 2003.

To carry out its responsibilities under the two contracts, LMSO frequently procures
goods and services from other sources through subcontracts. This approach includes
obtaining professional and consultant services. Contractors, such as LMSO, are required
to follow Government policies regarding competition in awarding their subcontracts and
must keep sufficient records to support the related costs subsequently charged to the
Government. Prior NASA Office of Inspector General and Department of Defense
Office of Inspector General audits have identified weaknesses in prime contractor
controls over professional and consultant services (see Appendix B). We performed this
audit as part of our continuing effort to provide oversight in areas that are sensitive and
that present a risk to NASA.

The DCMA is responsible for the Government’s oversight of LMSO’s purchasing
system, which includes the award and management of professional and consultant service
subcontracts. The DCAA is responsible for reviewing incurred costs, including costs for
professional and consultant services.

Objective. The overall audit objective was to determine whether NASA had adequate
controls over LMSO’s use of professional and consultant services. Specifically, we
determined whether LMSO’s management controls ensured compliance with FAR
requirements for such services. See Appendix A for details on the audit objectives,
scope, and methodology. We reviewed six subcontracts, valued at $10.9 million, for
professional services that LMSO awarded under the CSOC as of December 31, 2000.
We also reviewed one $9.9 million subcontract for professional services that LMSO
awarded under the SEAT contract (see Appendix C).

Results of Audit. NASA’s controls over LMSO's use of professional and consultant
services can be improved, and LMSO’s management controls did not ensure compliance
with FAR requirements. Weaknesses in the procurement and contract administration
processes exist in this sensitive cost area that, taken in combination, pose a potential risk
to NASA. For two of seven professional and consultant service subcontracts we
reviewed, LMSO officials had not properly justified noncompetitive procurements
(Finding A) and did not maintain sufficient records on actual services performed
(Finding B). As a result, NASA has reduced assurance that LMSO obtained the best
available source or price for the services paid for under the two subcontracts. Further,
$383,777 charged to NASA for professional and consultant services may include
unallowable costs.

Recommendations. We recommended that NASA ask the DCMA administrative
contracting officer (ACO) to: (1) require LMSO to prepare written justifications when
professional or consultant services are obtained noncompetitively, (2) include
professional and consultant service subcontracts in reviews of LMSO’s purchasing
system, and (3) require LMSO to establish procedures for obtaining temporary
professional services through subcontracts. We also recommended that NASA ask the
DCAA to review costs for temporary professional services obtained under two5 LMSO
subcontracts in DCAA’s next incurred cost audit and to include professional and
consultant service costs in samples selected for future incurred cost audits.

Management’s Response. NASA concurred with all the recommendations and has
requested that DCMA and DCAA take the recommended actions.

Evaluation of Management’s Response. We consider management’s comments
responsive and commend the Agency for taking immediate actions to strengthen
oversight of LMSO’s professional and consultant service subcontracts.




5
 Two of seven subcontracts we reviewed may include professional and consultant service costs that do not
meet FAR requirements for allowability (Finding B).




                                                   ii
Introduction

LMSO’s Responsibilities in Subcontracting. The Agency’s CSOC and SEAT
contracts give LMSO authority to subcontract for professional and consultant services
and require LMSO to award and administer subcontracts according to requirements in
FAR, Part 44, “Subcontracting.” LMSO must maintain a purchasing system that
promotes efficient and effective use of Government funds. The purchasing system must
include processes that select the best source for a subcontract and oversight controls that
ensure the proper award and administration of subcontracts. Oversight controls are
critical to protecting NASA's interest because most LMSO subcontracts for professional
and consultant services involved sources not subject to Government oversight.6 FAR
Part 44 requires LMSO to comply with Government policies in subcontract awards,
including the Government policy of full and open competition in contracting.7

LMSO obtained temporary professional services to conduct work on the CSOC and
SEAT contracts through two competitively awarded subcontracts with Liberated Staffing
Services, Inc. (Liberated).8,9 Under the subcontracts, Liberated provided temporary
professionals on a direct labor hour basis through task directives issued by LMSO.
LMSO paid Liberated $0.95 for each hour the temporary professionals worked. For the
subcontract with Liberated under the CSOC, LMSO also paid Liberated a 7-percent
handling fee on travel costs incurred by the temporary professionals. LMSO acquired the
services of 130 professionals under 305 task directives issued to Liberated through
May 2001.


Oversight of Professional and Consultant Services. NASA delegated some contract
administration responsibilities for the CSOC and SEAT contracts, including reviews of
LMSO’s purchasing system, to the DCMA. The DCMA is responsible for conducting
purchasing system reviews to evaluate LMSO’s purchasing of material and services,
including subcontracts. The DCMA ACO uses the purchasing system review as a basis
for approving LMSO’s purchasing system.

The most recent DCMA purchasing system review at LMSO occurred in September
1997, and the DMCA ACO approved the purchasing system on October 8, 1997. The

6
  Many subcontractors providing professional services to LMSO do not have contracts with the
Government and, therefore, are not subject to Government oversight. An example of such oversight is a
DCMA review of purchasing systems.
7
  FAR, Part 6, "Competition Requirements," prescribes policies and procedures to promote full and open
competition in the acquisition process.
8
  LMSO uses subcontract G962318J76 to obtain services under the SEAT contract. The period of
performance for this subcontract is October 1, 1998, through September 30, 2002, with an option to extend
through December 31, 2003. The estimated value of the subcontract, with options, is $9.9 million.
9
  LMSO uses subcontract GA67386B14 to obtain services under the CSOC. The period of performance for
this subcontract is August 30, 1999, through December 31, 2002, with options to extend the period to
December 31, 2003. The subcontract has a not-to-exceed value of $6 million through December 31, 2001.
approval remains in effect until withdrawn or canceled by the ACO. In September 2000,
the DCMA prepared a risk assessment10 on LMSO’s purchasing system and concluded
that LMSO’s operations posed a low risk to the Government. The DCMA will prepare
another risk assessment in calendar year 2003 to determine the need for a purchasing
system review.




10
  Every 3 years, starting with the DCMA ACO’s approval of LMSO’s purchasing system, the DCMA
performs a risk assessment to determine whether a full review of the purchasing system is necessary. If the
assessment indicates risks are acceptable, no actions are taken until the next risk assessment. If risks are
considered unacceptable, the DCMA performs a full review of the contractor’s purchasing system.

                                                     2
Findings and Recommendations

Finding A. Controls Over Noncompetitive Procurements of
           Professional and Consultant Services
LMSO did not properly justify the noncompetitive hiring of temporary professionals and
consultants. Specifically, LMSO did not prepare written justifications for professional
services on 16 task directives, totaling $1.02 million, that we reviewed under the 2
subcontracts with Liberated. This condition occurred because LMSO officials identified
the individuals it favored for providing professional and consultant services and arranged
the individual's rates of compensation in a manner that circumvented LMSO's approved
purchasing system. Further, since 1997, the DCMA performed only risk assessments11
rather than full purchasing system reviews of LMSO's procurement system. As a result,
NASA had reduced assurance that LMSO obtained the best possible sources for the
services at the most reasonable prices, and there is an increased risk of potential conflicts
of interest.


Federal Contracting Requirements

FAR, Part 6, "Competition Requirements," directs contracting officers to take specific
actions that ensure compliance with Government policy on full and open competition in
Government contract awards. The contracting officer must solicit offers from as many
potential sources as is practical. To identify potential sources, the contracting officer
conducts a market analysis, documents the analysis, and retains the documentation in the
contract file. A contracting officer can award a noncompetitive procurement when only a
single qualified source is available to perform the contract requirements. However, the
contracting officer must prepare a written justification that explains why a competitive
procurement is not appropriate. The justification must describe the market analysis and
analysis results, identify other sources that are available, explain the selected source's
unique qualifications, and explain why the available sources that were not selected were
unqualified.

FAR, Part 44, “Subcontracting,” requires the LMSO to comply with Government policies
in subcontract awards, including the Government policy of full and open competition. To
ensure LMSO competitively awards subcontracts to the maximum extent practical, the
CSOC and SEAT contract incorporated FAR Clause 52.244-5, “Competition in
Subcontracting.”




11
  DCMA conducts risk assessments to determine whether a contractor purchasing system review is needed
based on factors having a bearing on the risk posed to the Government. Factors include, but are not limited
to, results of previous reviews of the contractor’s purchasing system, the amount of time since the last
review, and the contractor’s Government contract mix. Therefore, a risk assessment would not necessarily
identify problems with proper justifications for noncompetitive procurements.

                                                     3
LMSO Acquisition Procedures

LMSO implemented Purchasing Procedure P-003, “Limited Source Procurements,” (July
1997) to establish procurement procedures for maximizing competition in subcontract
awards. By its own terms, the procedure “applies to all procurements,” and its stated
purpose is to “provide a policy concerning limited source procurements and to maximize
competition in all aspects of procurement.” The procedure prescribes substantial
requirements to justify and support with documentation any decision to procure goods or
services on a noncompetitive basis. Procedure P-003 requires LMSO personnel
requesting a noncompetitive procurement to prepare either a “letter of justification” or a
“limited source questionnaire” that includes detailed explanations of:

         • the reason comparable goods or services will not suffice;

         • other sources that have been considered and, if none, why;

         • the reason the recommended source is the only one that can provide the
            required product or service, including sufficient facts and rationale; and

         • the reason services cannot be obtained through other agencies or companies,
            when the services of a particular individual or company are requested.

LMSO also had established procedures to avoid potential conflicts of interest regarding
individuals hired to provide management and proposal support services. Lockheed Martin
Purchasing Procedure P-062, “Retaining Management or Proposal Support Contractor
Services,” required management and proposal support contractors12 to sign a Conflict of
Interest Disclaimer Statement. The purpose of the disclaimer was to prevent potential
conflicts of interest that could result from hiring prior Lockheed employees, NASA
employees, or others who were personally involved in the program or technical area in which
they would be providing services.


Written Justifications Not Prepared

For all 16 task directives reviewed (see Appendix D), LMSO did not prepare written
justifications for the temporary professionals hired on a noncompetitive basis. Although
Liberated was contractually required to furnish LMSO qualified professionals, officials at
LMSO identified, by name, the specific individuals it wanted Liberated to retain as
temporary professionals. LMSO also estimated the number of hours for the individuals

12
  LMSO defines a management and proposal support contractor as “an independent contractor possessing
special knowledge, skill, or training which may be combined with operational experience, whose services
take the form of advice, information, opinions, recommendations or assistance to management and who
will not interface with present or potential customers, legislators, or legislative personnel. The contractor
may be used to assist executive management in areas such as strategic planning, technical development,
policy formulation, market opportunities, and decision making or may provide services in support of a
specific bid opportunity or program such as review teams and proposal support.”

                                                      4
and specified the maximum cost. As a result, Liberated had no independent discretion
under the subcontracts with LMSO and performed only the administrative functions
associated with processing the necessary paperwork for hiring, paying, and reimbursing
the individuals LMSO identified.

LMSO retained all discretion and authority to determine who was to be hired and the cost
for the 16 task directives we reviewed. Therefore, it is our opinion that LMSO, not
Liberated, conducted the procurements and was subject to the competition requirements of
the CSOC and SEAT contracts and LMSO’s internal procurement procedures. LMSO
should have selected temporary professionals on a competitive basis to the maximum
practical extent or should have justified the decision not to use competitive procedures as
set forth in LMSO’s Purchasing Procedure P-003.


LMSO Practice

LMSO officials stated that it was LMSO practice not to prepare written justifications on
temporary professional services obtained under the two subcontracts with Liberated.13 The
officials also stated that letters of justifications were not required because the subcontracts
with Liberated were task order-type subcontracts that LMSO awarded on a competitive
basis. However, Procedure P-003 states, “All purchase requisitions, requests for
subcontracts or other forms of request for directed, single or sole source items must be
accompanied by a letter of justification or a completed limited source questionnaire . . . .”
The 16 tasks fit the category of “other forms of request,” and the requirement would,
therefore, apply. In our opinion, the requests were within the requirements of LMSO
Procedure P-003, and LMSO should have prepared written justifications for the
professionals hired without full and open competition for the services.


DCMA Oversight of Subcontracts

NASA delegated surveillance of LMSO’s purchasing system to the DCMA for both the
CSOC and SEAT contracts. Subcontract management issues, such as a lack of
justifications for noncompetitive awards, should normally be identified during DCMA’s
review and approval of a contractor’s purchasing system. However, DCMA’s last full
review of LMSO’s purchasing system was in 1997, prior to award of the subcontracts with
Liberated. DCMA officials told us that the purchasing system and the decision to continue
its approval is re-evaluated every 3 years. Because DCMA had limited resources, it used a
risk assessment to determine whether a full purchasing system review was needed. Based
on the results of its risk assessment performed in September 2000, DMCA determined that
a full purchasing system review was not needed. A DCMA risk assessment, however,
would not necessarily identify the types of problems we identified during the audit because

13
  LMSO’s practice was to prepare written justifications on other subcontracts for professional services.
We reviewed five other subcontracts for professional services that LMSO awarded to companies other than
Liberated. LMSO noncompetitively awarded four of the five subcontracts. LMSO officials prepared
written justifications for those four subcontracts.

                                                   5
the assessment focuses on the past performance of the contractor, and the volume,
complexity, and dollar value of the subcontracts. The focus on the past performance of the
contractor includes considering the results of Government audits. Therefore, DCMA
should consider this finding in its future risk assessments and include professional and
consultant service subcontracts in its reviews of the LMSO purchasing system.


Increased Risks to NASA

LMSO’s practice of not preparing written justifications reduces the assurance that the
best possible sources were obtained for the services at the most reasonable prices. Under
the contracting process with Liberated, LMSO officials identified the individuals it
favored for providing services and arranged the rates of compensation for the individuals
in a manner that circumvented LMSO’s approved purchasing system and, in effect, left
NASA without assurance that the costs incurred for temporary professional services were
reasonable. Further, without adequate justifications for noncompetitive selections from a
single source, DCMA oversight reviews cannot be as effective in evaluating the
contractor’s system of internal controls, such as identifying potential conflicts of interest.


Improvements Needed

We understand NASA’s need to delegate some contract administration functions to
DCMA and to rely on DCMA to help ensure that the contractor has effective procedures
and follows them. We also understand the need for DCMA to focus limited resources
and to use a risk-based approach to the extent possible in overseeing subcontract
management. However, LMSO’s use of the two subcontracts to obtain temporary
professionals to support NASA work on a directed, sole-source basis is not consistent
with the intent of Government policies on competition and is not in NASA’s best
interests. Accordingly, NASA and the DCMA need to take actions to ensure LMSO
complies with competition requirements and follows LMSO established procedures on
limited source procurements.


Recommendations, Management’s Response and Evaluation of
Response

The NASA Johnson Center Director should direct the contracting officers for
NAS 9-98100 and NAS 9-19100 to coordinate with the DCMA ACO to:

       1. Require LMSO to follow its established internal procedures by preparing
          written justifications for future noncompetitive selections of temporary
          professionals obtained under the subcontracts with Liberated.

       2. Include professional and consultant service subcontracts in future LMSO
          risk assessments and purchasing system reviews.

                                              6
Management’s Response. Concur. NASA asked the DCMA to direct LMSO to prepare
written justifications for future competitive selections of temporary professionals as
required by LMSO’s established internal procedures. NASA also asked the DCMA to
review professional and consultant service subcontracts as part of the next regularly
scheduled contractor purchasing system or risk assessment review. The complete text of
management’s response is in Appendix E.


Evaluation of Management’s Response. Management’s completed actions are
responsive to the recommendations. Management’s actions are sufficient to disposition
recommendations 1 and 2 for reporting purposes.




                                           7
Finding B. Contractor Support for Professional and Consultant Service
           Costs
Professional and consultant services costs did not meet FAR requirements for
allowability. Specifically, for 7 (44 percent) of the 16 task directives14 we reviewed,
adequate support did not exist for costs charged to NASA. This occurred because LMSO
officials did not consider the services to be professional and consultant services as
defined by the FAR and, therefore, did not maintain evidence of actual services
performed.15 In addition, LMSO did not have written procedures for obtaining temporary
professional services through subcontracts. Without evidence for the nature and scope of
the services provided by the temporary professionals, NASA has reduced assurance that
the work performed was proper and did not violate law or regulations. Further, $383,777
charged to NASA for professional and consultant service subcontracts may include
unallowable costs.


FAR, NASA, and GAO Requirements

FAR, Subpart 31.205-33, “Professional and Consultant Service Costs,” states that
professional and consultant services are allowable costs only when supported by evidence
of the nature and scope of the service the consultant furnished under the subcontract.
FAR requires the contractor to maintain the following:

     •   Details of the agreement between the consultant and contractor (for example,
         work requirements and rate of compensation) and details of actual services the
         consultant performed.

     •   Invoices from the consultant with sufficient details regarding the time the
         consultant spent on the subcontract and the nature of the actual services the
         consultant performed.

     •   Consultant’s work products and documents related to the work the consultant
         performed. Examples include trip reports, minutes of meetings, and collateral
         memoranda and reports.16

NASA Policy Directive (NPD) 1200.1A, “Internal Management Controls and Audit
Liaison and Followup,” June 1, 2000, requires management to establish management


14
   Thirteen of the task directives were under the subcontract with Liberated for the SEAT contract. The
other three task directives were under the subcontract with Liberated for the CSOC.
15
   FAR Subpart 31.201-2(d) requires contractors to maintain records, including supporting documentation,
adequate to demonstrate that costs claimed have been incurred, are allocable to the contract, and comply
with applicable cost principles in the FAR and agency supplements. FAR Subpart 31.205-33 further
identifies records contractors are to maintain in support of professional and consultant services costs.
16
   Trip reports should indicate persons the consultant visited and subjects the consultant discussed during
the visits.

                                                     8
controls that protect resources, including contract funds, from improper use and to ensure
actions are in compliance with laws and regulations.

The GAO “Guide for Evaluating and Testing Controls Over Sensitive Payments”
provides a framework for management to evaluate the effectiveness of controls over
sensitive payment areas, including professional and consultant services. The guide states
that controls should prevent or detect noncompliance with related laws and regulations
and the misuse of public funds. Specifically, management should ensure that contract
and consulting services are authorized, payment amounts are correct, and receipts support
the payments for goods and services. Although the GAO guide does not require
management to follow its framework, the guide assists management in identifying risks,
such as sensitive payment areas, and in carrying out its control responsibilities under
NPD 1200.1A.


LMSO Procedures

LMSO had procurement procedures that were approved by the Government. The
procedures included maintaining documentation to support costs billed to NASA and the
Government. However, LMSO did not have a written procedure that addressed
documenting costs for professional and consultant services and the requirements of FAR
Part 31.205.


Task Directives for Professional Services

LMSO did not have adequate evidence to support the costs charged to NASA for 7 of the
16 task directives we reviewed.17 Therefore, some or all of the related costs on the seven
tasks directives may not be allowable under FAR requirements. The deficiencies in
documentation follow:

     •   Insufficient detail on invoices. Neither Liberated’s invoices to LMSO nor the
         professionals’ invoices18 to Liberated on the seven task directives included
         adequate descriptions of the actual services performed by the professionals.
         Liberated’s invoices to LMSO were based on invoices that the temporary
         professionals had submitted to Liberated. The invoices reflected the total number
         of hours worked on specific task directives during the reporting period, which was
         usually a week. Under the terms of the two subcontracts with Liberated, LMSO
         task order managers must sign each temporary professional's invoice before it is
         submitted to Liberated. Liberated generated a weekly invoice for billable hours
         based on the professionals’ invoices. Liberated then submitted its invoices and
         copies of the professionals’ invoices to LMSO. LMSO paid the invoices and
         billed NASA without requiring descriptions of the services.

17
   LMSO officials had adequate evidence to support the costs charged to NASA for the other nine task
directives.
18
   Liberated required the professionals’ to submit timecard-like invoices titled “Receiving Reports.”

                                                    9
      •   Undocumented work products. LMSO officials could not provide us evidence of
          work products or other records to support the actual work performed by the
          temporary professionals under the seven task directives. The LMSO files did not
          contain work products or other records, such as trip reports, minutes of meetings,
          collateral memoranda, or reports to show that the temporary professionals
          performed all the tasks called for in the task directives.

The following table shows the seven task directives and Liberated’s charges to LMSO
through May 25, 2001.

                       Task Directives Not Meeting FAR Requirements

     Task Directive Number                       Contract                         Billed Amounts
               35                                 SEAT                                        $ 35,665
               36                                 SEAT                                          79,329
              145                                 SEAT                                          24,939
              146                                 SEAT                                          41,301
              187                                 SEAT                                          36,430
              325                                 SEAT                                          14,099
        7400-09/02-002                            CSOC                                        152,014
             Total                                                                           $383,777


Applicability of FAR to the Provided Services

LMSO officials involved in the seven task directives believed that the FAR did not apply
to the services the temporary professionals provided.19 LMSO officials could not clearly
explain the distinction between the services provided under the seven task directives and
other professional services the officials believed were subject to the FAR.

However, it is our opinion that the services provided on the seven tasks were covered by
the FAR and that LMSO should have had the required information for the services to be
considered allowable and billed to NASA. Examples of the services provided on the
seven tasks follow:

      •   An engineer with experience in robotics was hired under task directive 35 to
          support the SEAT contract. The task involved trouble-shooting support in the
          Robotic System Evaluation Laboratory and identifying alternative operational
          methods and equipment. An LMSO official initially estimated the task would

19
  FAR 31.205-33(a) defines professional and consultant services as “services rendered by persons who are
members of a particular profession or possess a special skill and who are not officers or employees of the
contractor.” The FAR section further states that the services are “generally acquired to obtain information,
advice, opinions, alternatives, conclusions, recommendations, training, or direct assistance, such as studies,
analysis, evaluations, liaison with Government officials, or other forms of representation.”


                                                     10
         take 200 hours at a cost of $10,190, but the task was subsequently amended to
         700 hours at a cost of $35,665. The task directive stated that the task was to result
         in several work products, including a conceptual system design, an
         implementation plan, and a system specification document. However, LMSO
         officials could not provide us the work products prepared by the engineer.

     •   An aeronautical engineer was hired under task directive 7400-09/02-002 to
         support the CSOC contract. The task involved (1) evaluating and recommending
         technical solutions and approaches for operations automation related to CSOC
         mission control center operations, (2) supporting LMSO’s development of
         fixed-price contracting plans, and (3) performing other tasks as assigned. An
         LMSO official initially estimated the task for 1,000 hours at a cost of $75,950, but
         subsequently added another 1,000 hours at an additional $75,950. The directive
         did not identify specific work products to be furnished by the engineer. LMSO
         officials could not provide us work products prepared by the engineer to support
         the costs incurred under the task.

For the seven tasks, LMSO officials did not have adequate detailed information as
required by the FAR on either the invoices or actual work products. In our opinion, these
services and deliverable products fit the FAR examples of professional and consultant
services for "… alternatives, studies, recommendations… ,” and LMSO should have had
the required documentation to support the costs charged to NASA.

We discussed our concerns on these tasks with a DCAA official20 who stated that the
nature of the tasks was within the definition of the FAR and that such documentation is
generally expected and needed to verify incurred costs.


DCMA and DCAA Oversight

DCMA purchasing system reviews and DCAA audits of incurred costs use a risk-based
approach to select individual items for review. The risk-based approach focuses a review
on items for which the risk and expected benefit are greatest. The approach also balances
the audit staff and time required to review an item in relation to the risk of it being
unallowable and its dollar value. The dollar value of individual professional and
consultant service subcontracts are normally lower than other items of incurred costs.
Although professional and consultant services subcontracts are sensitive to improper use
or conflict of interest, the DCMA and DCAA are less likely to select the subcontracts for
review because of their lower dollar value.

Effect on Contract Costs

Without evidence for the nature and scope of the services provided by the temporary
professionals, NASA has reduced assurance that the work performed was proper and did

20
  DCAA has responsibility for reviewing incurred costs on Government contracts and final proposed costs
prior to contract closing to determine whether the costs are allowable and properly allocated.

                                                  11
not violate law or regulations. Lacking adequate supporting information, we question
whether the $383,777 charged to NASA on these seven tasks adequately met FAR
requirements and, therefore, may not be allowable. The DCMA should direct LMSO to
improve its procedures for obtaining temporary professional services, and the DCAA
should examine the allowability of the costs.


Recommendations, Management’s Response, and Evaluation of
Response
The NASA Johnson Center Director should direct the NASA contracting officers for
NAS 9-98100 and NAS 9-19100 to:

      3. Request the DCMA ACO to require LMSO to establish formal, written
         procedures for obtaining temporary professional services through
         subcontracts including the following:
          • Controls for determining whether the services are professional and
             consultant services as defined by FAR 31.205-33(a).
          • Documentation maintained on the details of actual services performed
             by the professionals or consultants including deliverable items such as
             required analyses and reports.

      4. Request the DCAA to review LMSO costs for professional and consultant
         services obtained under subcontracts G962318J76 and GA67386B14 in the
         next incurred cost audit and to include professional and consultant
         services costs in samples selected for future incurred cost audits.


Management’s Response. Concur. NASA asked the DCMA to initiate actions to
ensure the adequacy of LMSO’s procedures for obtaining professional and consultant
services through subcontracting. NASA also asked the DCMA to have the DCAA audit
costs relating to temporary professional services obtained under the subcontracts with
Liberated available for the next incurred cost audit and to include professional and
consultant services in representative audit samples for future incurred cost audits. In
addition, the fiscal year end incurred costs audits will resolve the $383,777 in potential
unallowable costs (see Appendix E).


Evaluation of Management’s Response. Management’s completed actions are
responsive to the recommendations. Management’s actions are sufficient to disposition
recommendations 3 and 4 for reporting purposes.




                                            12
             Appendix A. Objectives, Scope, and Methodology
Objectives

The overall objective was to determine whether NASA had adequate controls over
Lockheed Martin Space Operation’s (LMSO’s) use of professional and consultant
services. Specifically, we determined whether the contractor’s management controls
ensured compliance with Federal Acquisition Regulation (FAR) requirements.


Scope and Methodology

The initial scope of the audit was professional and consultant service subcontracts that
were active in 1998 - 2000 under NAS9-98100. During that period, LMSO had six active
professional and consultant service subcontracts totaling $10.9 million. Based on the
results of our review, we expanded the scope of the audit to include a $9.9 million
subcontract under NAS9-19100. We examined the subcontracts, statements of work,
single-source justification memoranda, cost and price analyses, consultants’ invoices and
work products, payment approvals, task directives, and miscellaneous correspondence.
We also compared each subcontract against requirements in the FAR and relevant LMSO
policies and procedures, interviewed contractor personnel who requested the consultant
services, LMSO procurement officials, NASA contracting officers, Defense Contract
Audit Agency managers, and the Defense Contract Management Agency administrative
contracting officer.


Use of Computer-Processed Data

We obtained computer-generated data on subcontract awards and tested the data by
comparing data to source documents for the sampled subcontracts. The tests showed that
the computer-processed data were sufficiently reliable to be used in meeting the audit
objectives.


Management Controls Reviewed

We reviewed management controls over compliance with FAR allowability requirements
and the award of subcontracts for professional and consultant services. We determined
that management controls over compliance with the FAR allowability requirements and
over justifications for noncompetitive procurements need improvement as discussed in
Findings A and B.




                                           13
Appendix A

Audit Field Work

We performed audit field work from February 2001 through January 2002 at Johnson
Space Center and at LMSO facilities in Houston, Texas. We performed the audit in
accordance with generally accepted government auditing standards.




                                         14
           Appendix B. Summary of Prior Reviews and Findings

NASA Office of Inspector General Reviews. The NASA Office of Inspector General
issued two audit reports on contractors’ use of professional and consultant services and
two audit reports on subcontract management. (Copies of the four reports are available at
www.hq.nasa.gov/office/oig/hq/issuedaudits.html.)

“Thiokol’s Use of Professional and Consultant Services,” Report Number
IG-01-019, March 30, 2001. Thiokol Propulsion’s justifications for noncompetitive
procurements of the professional and consultant services were inadequate and untimely.
As a result, NASA had reduced assurance that Thiokol obtained the best available source
or price for consultant services paid for under the seven subcontracts reviewed. In
response to our recommendations, the NASA administrative contracting officer, in
conjunction with the Defense Contract Management Agency (DCMA), requested Thiokol
(1) to ensure that contractor personnel submit justifications for noncompetitive
procurements to include a statement addressing efforts to identify other sources and the
reasons why other sources are incapable of performing the subcontract requirements and
(2) to ensure that the justifications be submitted and approved prior to initiation of work.
The DCMA administrative contracting officer instructed the Defense Contract Audit
Agency (DCAA) to include professional and consultant services costs as part of the
incurred cost audit for calendar year 1999. Further, the NASA contracting officer
requested the DCMA administrative contracting officer to (1) include professional and
consultant services costs, including the allocation of these services, in their surveillance
reviews and (2) notify the NASA contracting officer when NASA did not receive
reasonable benefits as a result of the allocation.

“Untied Space Alliance’s Use of Professional and Consultant Services,” Report
Number IG-01-012, March 16, 2001. United Space Alliance (USA) officials charged
NASA for professional and consultant services costs that did not meet Federal
Acquisition Regulation (FAR) requirements for allowability and prepared inadequate and
untimely justifications for noncompetitive procurements of the professional and
consultant services. Specifically, USA officials did not: maintain evidence on the nature
and scope of the furnished services; maintain adequate support for decisions to
noncompetitively award the service subcontracts; or prepare written justifications for the
noncompetitive awards prior to initiation of the work. As a result, USA charged NASA
$468,673 for the services that did not meet FAR requirements for allowability, and the
Agency had reduced assurance that USA obtained the best available source or price for
professional and consultant services. In response to our recommendations, NASA, in
conjunction with the DCMA, directed USA to maintain required support for professional
and consultant costs and asked the DCAA to include reviews of professional and
consultant services costs in its next audit of USA’s incurred costs. NASA also directed
USA to maintain additional support for decisions to award professional and consultant
services subcontracts on a noncompetitive basis. In addition, the DCMA established a
process that includes reviews of professional and consultant service subcontracts in
semiannual surveillance reviews.



                                             15
Appendix B

“Allied-Signal Subcontract Management,” Report Number IG-99-042,
September 16, 1999, and “Raytheon Subcontract Management,” Report Number
IG-00-002, December 21, 1999. Purchasing department buyers for the two contractors
did not maintain documentation to support justifications for noncompetitive
procurements. The contractors' purchasing policies did not require contractor personnel
to keep supporting documentation. Additionally, Government oversight reviews of the
contractors’ procurement systems did not include examinations of supporting
documentation for noncompetitive procurements. As a result, NASA had reduced
assurance that the contractor maximized the competition of its subcontracts. In response
to our recommendations, NASA management instructed the contractors to maintain
adequate documentation in support of noncompetitive procurements. NASA
management also took actions to include reviews of supporting documentation in future
reviews of the contractors’ purchasing systems.


Department of Defense (DOD) Inspector General Reviews. The DOD Office of
Inspector General issued two audit reports on consultant service contracts.

“Contracts for Professional, Administrative, and Management Support Services,"
Report Number D-2000-100, March 10, 2000, and “Use of Unpaid Consultants by
the DoD Exchange Services,” Report Number D-2001-005, October 16, 2000. Report
Number D-2000-100 discusses a review of procurement procedures for professional,
administrative, and management support service contracts at 15 DOD contracting
activities and program offices. The report identified problems in each of 105 sampled
contract actions. Problems included undefined requirements, inadequate technical
reviews, inadequate negotiation memorandums, inadequate competition, and lack of cost
control. The DOD Office of Inspector General recommend that the Deputy Under
Secretary of Defense (Acquisition Reform) develop training on planning and defining
requirements for contracts for professional, administrative, and management support
services; train contracting and program personnel in the award and administration of
contracts for these services; and emphasize, in the training, the need to avoid the kinds of
deficiencies noted in the report.

Report Number D-2001-005 discusses the Army and Air Force Exchange Service’s
inappropriate engagements of consultants who had financial affiliations with the
Exchange Service. The Exchange Service did not require unpaid consultants to file
financial disclosure reports, which could have assisted in identifying potential conflicts of
interest. The DOD Office of Inspector General recommended that the Commander,
Army and Air Force Exchange Service, require the consultants to file financial disclosure
reports and attend annual ethics training, alter the relationship between its board of
directors and the consultants, and establish policy on the use of unpaid consultants.




                                             16
                      Appendix C. Subcontracts Reviewed


                                  Subcontract Number      Dollar Value

Consolidated Space                      GA67386B14*        $ 6,000,000
Operations Contract                     G998717B28           4,053,232
(NAS 9-98100):                          GB53786B14             409,050
                                        GA74257B22             300,000
                                        OB53780B14              97,500
                                        G998721B28         ____30,000
    Subtotal                                              $10,889,782

Science, Engineering,
Analysis and Test Contract
(NAS 9-19100):                          G962318J76*         9,952,982

    Total                                                 $20,842,764



* Subcontract with Liberated Staffing Services, Inc.




                                           17
                   Appendix D. Task Directives Reviewed


                                  Task Directive              Billed            Billed
    Contract Number                  Number                   Hours            Dollars
     NAS 9 - 19100                      14                     1,605         $ 81,775
     NAS 9 – 19100                      35*                      700            35,665
     NAS 9 – 19100                      36*                    1,557            79,329
     NAS 9 – 19100                     135                     1,331            81,569
     NAS 9 – 19100                     145*                      471            24,939
     NAS 9 – 19100                     146*                      780            41,301
     NAS 9 – 19100                     148                       787            41,278
     NAS 9 – 19100                     180                     1,505            67,650
     NAS 9 – 19100                     187*                      688            36,430
     NAS 9 – 19100                     325*                      252            14,099
     NAS 9 – 19100                     336                       841            53,529
     NAS 9 – 19100                     343                       444            24,398
     NAS 9 – 19100                     366                       130             6,819
     NAS 9 – 98100                7400-09/02-001               1,120            65,064
     NAS 9 – 98100                7400-09/02-002*              2,001           152,014
     NAS 9 – 98100                 7110-5/8-004                1,986           210,469
        Totals                          16                    16,198        $1,016,328




* Lockheed Martin Space Operations (LMSO) did not maintain adequate documentation
to support the work actually performed by the professionals and consultants under these
seven task orders. LMSO billed NASA a total of $383,777 for the seven task orders.




                                          18
Appendix E. Management’s Response




               19
Appendix E




             20
     Appendix E




21
Appendix E




             22
     Appendix E




23
Appendix E




             24
                      Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform



                                         25
Appendix F

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees (Cont.)

House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         26
                NASA Assistant Inspector General for Audits
                             Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: Lockheed Martin Space Operations’ Use of Professional and Consultant
              Services

Report Number: _____________________ Report Date: ____________________

                Circle the appropriate rating for the following statements.
                                             Strongly                                Strongly
                                             Agree      Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and          5         4       3          2           1      N/A

   logically organized.
2. The report was concise and to the            5         4       3          2          1       N/A

   point.
3. We effectively communicated the              5         4       3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient              5         4       3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?
#      Excellent      #       Fair
#      Very Good      #       Poor
#      Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 # Media
   #   NASA Employee                       # Public Interest
   #   Private Citizen                     # Other:
   #   Government:            Federal:          State:         Local:


May we contact you about your comments?


Yes:_______                                No:_______

Name:______________________________

Telephone:__________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Lorne Dear, Program Director, Procurement Audits

Nora Thompson, Program Manager, Procurement Audits

Richard Dix, Program Manager, Procurement Audits

Doug Orton, Auditor-in-Charge

Bobbie Wells, Auditor

Nancy C. Cipolla, Report Process Manager

Debbie Schuerger, Program Assistant
